Joshua J. Bennett
214.550.2112 (direct line)
jbennett@carterarnett.com
Carter Arnett PLLC
Campbell Centre II
8150 N. Central Expressway
Suite 500
Dallas, Texas 75206
Tel. 214.550.8188
Fax 214.550.8185

VIA ELECTRONIC FILING
March 1, 2021

www.carterarnett.com

The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
RE:

Collier v. Dallas County Hospital District, dba Parkland Health &
Hospital System, No. 20-1004

Dear Mr. Harris:
I am counsel of record for respondent, Dallas County Hospital District, doing
business as Parkland Health & Hospital System (“Parkland”). On February 16, 2021,
the Court requested that Parkland file a response to Petitioner’s petition for a writ of
certiorari by March 18, 2021.
Parkland files this letter under this Court’s Rule 30.4 and seeks a 21-day
extension of its deadline to respond, which would make Parkland’s response due by
April 8, 2021. Parkland’s request is justified under Rule 30.4 and necessary. During
the week of February 15, 2021, Texas experienced severe winter weather that caused
extended power-outages for Parkland’s counsel and delayed events and deadlines in
other matters that have, in turn, impeded counsels’ ability to respond as requested
by March 18, 2021. Parkland therefore requests that the Court extend Parkland’s
deadline to respond to April 8, 2021, which is eight days before the Court’s next
scheduled conference of April 16, 2021.
Counsel for petitioner has consented to this request.
Your assistance is appreciated.
Warmest regards,
/s/ Joshua J. Bennett
Joshua J. Bennett
CC:

Counsel for petitioner, service list attached

Page - 2
SERVICE LIST:
Brian Wolfman
Hannah Mullen
GEORGETOWN LAW APPELLATE COURTS IMMERSION CLINIC
600 New Jersey Ave., NW, Ste. 312
Washington, D.C. 20001
wolfman@georgetown.edu
Jay D. Ellwanger
Jen Despins
ELLWANGER LAW, LLLP
8310-1 North Capital of Texas Hwy, Ste. 190
Austin, TX 78731
jellwanger@equalrights.law
jdespins@equalrights.law

